                  UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL

                                       Washington D.C. 20250



                                                                              June 21, 2000


REPORT TO THE SECRETARY ON THE MEAT AND POULTRY INSPECTION PROCESS

FROM:         Roger C. Viadero
              Inspector General

SUBJECT:      Food Safety Initiative


The Office of Inspector General initiated a series of audits of the U.S. Department of
Agriculture’s Food Safety Inspection Service (FSIS) to determine whether FSIS’ meat
and poultry inspection program remains effective under the science-based Hazard
Analysis and Critical Control Point (HACCP) System. Our initiative included reviews of
three facets of the new inspection system—HACCP, laboratory analyses, and foreign
imports—and a review of the compliance program that carried over from the previous
system.

The results of our Food Safety Initiative demonstrate that FSIS has taken positive steps
to secure the safety of meat and poultry products. However, more needs to be done in
all four of the areas we reviewed. For the science-based system to reach its full
potential, FSIS needs to take maximum advantage of the expanding role that science
now plays as a control over the meat and poultry that enters the marketplace. Some of
this control is seen directly in the identification of pathogens; some is seen in the
integration of scientific techniques (e.g., operational procedures, reliance on objective
data) into the systems being established.

Most significantly, we found that FSIS needs to command a more aggressive presence
in the inspection and verification process. FSIS has not always established needed
procedures or apprised itself of all areas where inspection is critical; consequently, it
has reduced its oversight short of what is prudent and necessary for the protection of
the consumer.

FSIS initiated its conversion to HACCP in July 1996 when it issued the rules regarding
HACCP and the Pathogen Reduction system. These rules clarified the respective roles
of Government and industry in food safety: Industry is accountable for producing safe
food; Government is responsible for setting food safety standards, maintaining
inspection oversight, and maintaining an enforcement program to ensure that
establishments that do not meet standards are appropriately sanctioned.
Report to the Secretary on the Meat and Poultry Inspection Process                        2


The key elements that constitute FSIS’ transition from its former methodology to a
science-based system include testing for Salmonella and other harmful pathogens and
residues, ensuring the implementation of sanitation standard operating procedures
(SSOP) at each of the 6,000 meat and poultry establishments under Federal inspection,
and monitoring HACCP operating plans for each of these establishments. FSIS also
implemented an “equivalency” program through which the food safety standards of
foreign countries could be judged according to the requirements of the HACCP and
Pathogen Reduction systems.

As the transition took form, we proactively monitored FSIS’ implementation plans. Our
goal was to ensure that the guarantee of product safety and wholesomeness existing
under FSIS’ former methodology would continue under the science-based system.

We reviewed FSIS’ activities across a broad spectrum of meat and poultry inspection
operations to assess the agency’s major inspection and control components. Our
reviews focused on—

§   implementation of the HACCP program and of sanitation standard operating
    procedures, including efforts to test for pathogens and reduce their presence,

§   FSIS’ quality assurance programs over its laboratory facilities and operations,
    product sample integrity, and laboratory testing operations,

§   FSIS’ process to determine whether foreign countries’ safety inspection systems are
    equivalent to that of the United States, and

§   the effectiveness of FSIS’ compliance review program in detecting violations of
    meat and poultry inspection laws at non-federally inspected firms.

The graphic on the following page depicts the relationship of the four evaluated areas.
HACCP and laboratory testing are integral to FSIS’ domestic industry oversight. FSIS
also determines the “equivalency” of foreign systems, whose meat and poultry may then
flow into domestic industry or directly to the marketplace. FSIS’ program of
enforcement and compliance monitors both the industry and the marketplace to verify
compliance with meat and poultry inspection laws and the wholesomeness of meat and
poultry products.
Report to the Secretary on the Meat and Poultry Inspection Process                          3




         Domestic Meat and Poultry
         - grant of inspection                           Foreign Meat and Poultry
         - industry responsibility                       - equivalency determination
         - FSIS oversight                                - foreign country responsibility
         - laboratory analysis                           - FSIS reinspections
         - verification                                  - laboratory analysis
                                                         - verification
         - compliance                                    - compliance

                                 U.S. Distributors/Retail Markets
                                           - compliance




FSIS needs to strengthen its oversight in all four areas we reviewed. For example:

§   FSIS allowed establishments to limit or reduce the number of critical control points
    identified in their HACCP plans and thereby limit Government oversight.

§   FSIS’ data base did not list all establishments subject to tests for pathogens and
    residues (i.e., pesticides, etc.).

§   FSIS did not list all firms subject to compliance reviews and did not always target
    reviews at major metropolitan and geographic areas or at firms that could be
    regarded as high-risk.
Report to the Secretary on the Meat and Poultry Inspection Process                           4


§   FSIS approved equivalency status to foreign countries without adequately
    developing and implementing procedures for determining the equivalency of foreign
    inspection systems or clearly documenting such determinations. Unclear lines of
    authority, the absence of inspection system verification, and minimal FSIS oversight
    did not always validate that foreign food safety inspection systems were equivalent
    to U.S. standards.

FSIS also needs to be more aggressive in using laboratory analyses and scientific
expertise as a control against unwholesome product. We found that pathogen and
residue testing were underutilized in many areas. For example:

§   FSIS did not always review establishments’ microbial testing plans and protocols to
    ensure the samples taken under the HACCP system were scientifically selected and
    accurately tested.

§   FSIS did not enforce the requirement that foreign countries submit annual residue
    test plans and results.

§   FSIS did not always adequately document the involvement of technical subject-
    matter experts in its determinations of foreign country equivalency, and it did not
    always timely use the results of microbiological tests to update its reinspection data
    of those countries.

§   FSIS inspectors at meat and poultry establishments did not always provide required
    product samples to the FSIS laboratories for testing, thus leaving gaps in the
    sources of samples.

We also concluded that FSIS should expand its own testing requirements to increase
the number of tests taken of E. coli, Listeria, and Salmonella, and to include other
pathogens in those requirements. FSIS does not currently test for some major
foodborne pathogens, such as Campylobacter, that are now scientifically detectable.

In the area of compliance, we concluded that FSIS needs to act more aggressively
against repeat violators of the meat and poultry inspection laws. FSIS does not have
authority to impose civil penalties in cases that do not warrant criminal prosecution.
Letters of warning are often the only enforcement tool applied.

Overall, we are recommending that FSIS strengthen its procedures over the food safety
system. It needs to institute stronger procedures to ensure that all establishments are
tested. In the case of imported meats and poultry, FSIS needs to develop and
implement formal procedures over its entire equivalency process and enforce existing
regulatory requirements. For compliance verification, FSIS needs to refine its existing
compliance plan to establish the universe and scope of its reviews and target its
Report to the Secretary on the Meat and Poultry Inspection Process                             5

resources, and it needs to seek authority to impose monetary penalties and ensure that
violations of the meat and poultry inspection laws are met with these penalties and other
sanctions commensurate with the violation.

We are also recommending that FSIS assert its authorities over the HACCP system to
ensure that the intent of the program is met. To this end, FSIS needs to enhance its
grant of inspection so it functions like a contract, stipulating exactly what is required of
the establishments and defining the authorities and responsibilities FSIS has over their
operations.

FSIS’ responses to each of the audit reports are contained in the appropriate sections of
this report.




The results of our Food Safety Initiative are presented in four sections:

      I. Implementation of the Hazard Analysis and Critical Control Point System
         (24001-3-At) (FSIS’ response is found beginning on page 75.)
     II. Laboratory Testing of Meat and Poultry Products (24601-1-Ch) (FSIS’ response
         is found beginning on page 58.)
    III. Imported Meat and Poultry Inspection Process (24099-3-Hy) (FSIS’ response is
         found beginning on page 91.)
    IV. District Enforcement Operations—Compliance Activities (24601-4-At) (FSIS’
         response is found beginning on page 67.)

The diagram on the following page depicts the control points in the farm-to-table
process that we reviewed through our initiative.
Report to the Secretary on the Meat and Poultry Inspection Process                                   6




                                     Domestic Meat & Poultry              Foreign Meat & Poultry




                                           HACCP
                                                                                    Country
                                            SSOP                                  Equivalency
                    Meat & Poultry    Pathogen Reduction        Meat &            Determination
                       Product              Efforts             Poultry
                                                                Product


                                                                                         Processed
                                                                                         Product



                      Samples are removed from the food chain for testing

                                            Laboratory
                                             Testing
                                           (Verification)

                        If analyses show the presence of pathogens or residues,
                             products may be rejected, recalled, or reworked



                                  Notification


                                          Marketplace
                                          Compliance
                                          Verification
